<html>
<title> - RESILIENCY: THE ELECTRIC GRID'S ONLY HOPE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
               RESILIENCY: THE ELECTRIC GRID'S ONLY HOPE

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 3, 2017

                               __________

                           Serial No. 115-29

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
 
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
       
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 27-176 PDF                 WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001      
  
  
  
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  ALAN GRAYSON, Florida
THOMAS MASSIE, Kentucky              AMI BERA, California
JIM BRIDENSTINE, Oklahoma            ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           JERRY MCNERNEY, California
BARRY LOUDERMILK, Georgia            ED PERLMUTTER, Colorado
RALPH LEE ABRAHAM, Louisiana         PAUL TONKO, New York
DRAIN LaHOOD, Illinois               BILL FOSTER, Illinois
DANIEL WEBSTER, Florida              MARK TAKANO, California
JIM BANKS, Indiana                   COLLEEN HANABUSA, Hawaii
ANDY BIGGS, Arizona                  CHARLIE CRIST, Florida
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina



                            C O N T E N T S

                            October 3, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     4
    Written Statement............................................     6

Statement by Representative Marc A. Veasey, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     8
    Written Statement............................................    10

                               Witnesses:

Dr. William Sanders, Department Head, Department of Electrical 
  and Computer Engineering, University of Illinois
    Oral Statement...............................................    12
    Written Statement............................................    15

Mr. Carl Imhoff, Manager, Electricity Market Sector, Pacific 
  Northwest National Laboratory
    Oral Statement...............................................    89
    Written Statement............................................    91

Dr. Gavin Dillingham, Program Director, Clean Energy Policy, 
  Houston Advanced Research Center
    Oral Statement...............................................   114
    Written Statement............................................   117

Mr. Walt Baum, Executive Director, Texas Public Power Association
    Oral Statement...............................................   130
    Written Statement............................................   133

Discussion.......................................................   138

             Appendix I: Answers to Post-Hearing Questions

Mr. Carl Imhoff, Manager, Electricity Market Sector, Pacific 
  Northwest National Laboratory..................................   164

Dr. Gavin Dillingham, Program Director, Clean Energy Policy, 
  Houston Advanced Research Center...............................   166

Mr. Walt Baum, Executive Director, Texas Public Power Association   168

            Appendix II: Additional Material for the Record

Statement submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   170

Documents submitted by Representative Marc A. Veasey, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   172


               RESILIENCY: THE ELECTRIC GRID'S ONLY HOPE

                              ----------                              


                        Tuesday, October 3, 2017

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:09 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    Welcome to today's hearing entitled ``Resiliency: The 
Electric Grid's Only Hope.''
    I'll recognize myself for an opening statement and then the 
Ranking Member.
    Good morning. Today, the Committee on Science, Space, and 
Technology will examine the ongoing effort by federal agencies, 
industry, and the Department of Energy's National Labs to 
ensure that a resilient U.S. electric grid can deliver power to 
American homes, businesses, and essential services. This 
hearing specifically will consider the recommendations made by 
the National Academies of Sciences' in their July 2017 report 
identifying ways to enhance the resiliency of our electricity 
system.
    This Committee has held hearings addressing physical and 
cyber threats to our power system, as well as technological 
solutions to stop or prevent damage from these attacks, but we 
often ignore the fact that damage to the power grid can and 
will continue to occur. We cannot predict when a cyberattack 
would threaten our power supply, and as we were reminded a few 
weeks ago with the impact of Hurricane Harvey, we don't know 
when the next devastating natural disaster will occur.
    Instead of simply focusing on threats, we should prioritize 
improving the resiliency of our electric grid. The resiliency 
of the grid is the ability of system operators to prevent 
disruptions in power, limit the duration of a power disruption, 
and quickly repair potential damage. Resiliency is also 
increased by incorporating data analytics and anecdotal 
evidence to improve preparation for future disruptive events. 
Since it is not a question of ``if'' but a question of ``when'' 
the power grid will face significant physical and cyber 
threats, resiliency should be a priority for our electricity 
system.
    Congress requested that NAS conduct a study on the 
resiliency of the Nation's electric system. The final report 
was authored by a group of academics and industry partners with 
a knowledge base in electrical systems, engineering, and 
cybersecurity. The author of this report, Dr. William Sanders, 
will testify today on the NAS report and its recommendations.
    The report recommends government and industry collaboration 
and improved data-sharing as the primary strategy for improving 
the resilience of the Nation's electrical system. The NAS 
report also stresses the importance of the Federal Government's 
investment in the kind of long-term, early-stage applied 
research and technology development that is the mission of the 
DOE National Labs.
    DOE maintains research infrastructure at National Labs that 
is vital to better understanding and operating our electricity 
system. High performance computing systems can conduct complex 
modeling and simulations that predict potential electricity 
outages and plan responses to attacks. And information-sharing 
programs like the Department's Cyber Risk Information Sharing 
Program facilitate industry communication on shared threats. By 
partnering with industry through the National Labs, DOE can 
provide critical knowledge and enable the deployment of new 
technology that improves grid resilience.
    There are still challenges to improving resilience. The 
current federal programs to protect and preserve our electric 
grid are fragmented and complex. Within the Science Committee's 
jurisdiction alone, programs to improve grid security and 
resiliency are funded at the Department of Homeland Security, 
FERC, the Department of Energy, and the National Institute of 
Standards and Technology.
    And incorporating utilities across the country, both large 
and small, adds even more complexity. Agencies will need to 
work together to simplify the information-sharing process for 
industry. Federal agencies, including DOE, must also prioritize 
the early-stage research that industry does not have the 
capacity to undertake. This will lead to the next-generation 
technology solutions.
    I thank our witnesses today for testifying about their 
valuable efforts in research, and giving their insights about 
operations of the electric grid. I look forward to a productive 
discussion about how federal agencies can work with industry to 
secure a resilient electric grid and what role Congress should 
play in providing direction and oversight to this complex 
process.
    [The prepared statement of Chairman Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
 
    Chairman Smith. That concludes my opening statement, and 
the gentleman from Texas, Mr. Veasey, is recognized for his.
    Mr. Veasey. Good morning, and thank you, Chairman Smith, 
for holding this very important and timely hearing today. I 
really appreciate that. I'd also like to thank the 
distinguished panelists for being here this morning. I'd also 
like to thank Dr. Dillingham in particular. It's my 
understanding that your house was affected by the storm and 
hope that you and your family are doing okay now and recovering 
well.
    And also I'd like to--I look forward to this hearing and--
because I want to hear your professional findings and your 
firsthand account of what storms like this can cause to 
communities across the country. I'm also interested in learning 
what we can do to improve their ability to restore power and 
other essential services as quickly as possible.
    Hurricanes Harvey, Irma, and Maria are very unfortunate 
examples of events that our world's leading scientific 
institutions many times here in this committee have warned us 
would happen more often. It is difficult to attribute any 
single storm to one specific cause but there is a strong 
scientific consensus that human activity is responsible for 
conditions that may lead to more frequent and intense 
hurricanes, and the severity of these events may continue to 
get worse unless we do something to change our trajectory. This 
is a major reason that resilience is so important, and I am 
glad that we are elevating our examination of this topic today.
    With that said, I am very concerned again with how the 
Department of Energy may actually be using and redefining grid 
resiliency to accomplish a political agenda. Just last Friday, 
the Department of Energy submitted a proposed rule to FERC with 
the direct purpose of adjusting market rules to favor coal and 
nuclear plants because they may have several weeks of fuel on 
site. The Department asserted that this makes these plants more 
resilient than natural gas and renewables and therefore deserve 
extra compensation for this attribute.
    And I would imagine, Mr. Chairman, that there are probably 
some people that drill in Texas for natural gas that will 
probably be--will probably disagree with that.
    Now, to be clear I'm a very strong supporter of developing 
and incentivizing carbon capture methods and technologies. It 
will help us to--it will help us reasonably use the abundant 
fossil fuel resources our nation has at its disposal, including 
coal. I also support the development and deployment of next-gen 
nuclear technologies while doing what we can to safely extend 
the lifetime of our current fleet.
    But that doesn't mean that we should unfairly favor coal 
and nuclear without a strong independently reviewed 
justification. The Department has leaned on its recently 
released report on the electric grid for its justification, but 
the lead author of that report, Alison Silverstein, pushed back 
against this mischaracterization of her work. According to the 
conversations she had with committee staff, the bulk of her 
work remained intact after she handed it to the Department. 
However, the final report's specific recommendations supporting 
coal and nuclear plants due to their resiliency characteristics 
was not justified by any research that she or her colleagues 
were aware of. In a piece she published in Utility Dive 
yesterday, Ms. Silverstein took issue with how DOE interpreted 
her technical work in the staff report.
    And, Mr. Chairman, I would like to enter this article in 
the record.
    Chairman Smith. Without objection, so ordered.
    [The information appears in Appendix II]
    Mr. Veasey. In it, she states the characteristics, metrics, 
benefits, and compensation for essential resilience and 
reliability services are not yet fully understood. 
Specifically, she concludes that, ``At this point we could not 
say that coal and nuclear have unique characteristics that 
provide such resiliency benefits that they should receive 
special treatment in the market.''
    This conclusion is also echoed by a thorough analysis 
released by the conservative R Street Institute on Sunday, 
which found that this proposal is neither technically nor 
procedurally sound. R Street summarized it as an arbitrary 
backdoor subsidy to coal and nuclear plants that risk 
undermining the electrical competition throughout the United 
States.
    And a story published in Energy and Environment News on 
Friday titled ``Flooded Texas Coal Piles Dampen Reliability 
Arguments'' is an example of why this proposed rule may not 
have been as rigorously developed as it should have been, never 
mind the fact that in addition to doing what we can to ensure 
the resiliency of the grid, the cost of unmitigated pollution 
from fossil fuels should also be incorporated into the cost. 
Propping up coal for one insufficiently justified reason 
without properly pricing a major cost of its development and 
use to our public health and the environment is not what I 
would call good policymaking.
    And before I conclude, Mr. Chairman, I would like to note 
that while the natural disasters are considerable threat to our 
grid infrastructure, there are a number of other concerns to 
keep in mind, too: cybersecurity, physical attacks, our aging 
infrastructure, geomagnetic disturbances, all of those present 
unique challenges to grid resiliency. And I look forward to 
hearing all of these topics discussed today.
    And finally, I would be remiss to not remind the majority 
of--the majority here on the panel that we are fast approaching 
the end of the year, and we have still not heard from Secretary 
Perry yet on this committee, and we need to hear from him. And 
I would think that with all the Texans that are on this 
committee that it would be like when he was with Randy Weber 
now in the State Legislature and he would feel fine coming on 
down here and talking to us. We've got east Texas, west Texas, 
the Houston area, Dallas-Fort Worth. We're all represented and 
I'm sure that Rick, as we used to call him when I was in the 
Texas Legislature, that he would feel fine coming on down here 
and talking to us and testifying.
    So, Mr. Chairman, with that, I yield back my time.
    [The prepared statement of Mr. Veasey follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Chairman Smith. That's a good pitch, Mr. Veasey, and a good 
statement as well. Thank you.
    Let me introduce our witnesses. Our first witness today is 
Dr. William Sanders, Department Head of the Department of 
Electrical and Computer Engineering at the University of 
Illinois. Dr. Sanders received a bachelor's degree in computer 
engineering, a master's of science degree and a Ph.D. in 
computer science and engineering from the University of 
Michigan.
    Our next witness is Mr. Carl Imhoff, Manager of the 
Electricity Market Sector at Pacific Northwest National 
Laboratory. With over 30 years of experience at PNNL, Mr. 
Imhoff has been involved with multiple electric power system 
organizations. He received a bachelor's degree in industrial 
engineering from the University of Arkansas and a master's 
degree in industrial engineering from Purdue University.
    The third witness is Dr. Gavin Dillingham, Program Director 
for Clean Energy Policy at Houston Advanced Research Center. 
Additionally, Dr. Dillingham is the Director of the U.S. 
Department of Energy Southwest Combined Heat and Power 
Technical Assistance Partnership. He received a Ph.D. in 
political science from Rice University.
    Our final witness today is Mr. Walt Baum, Executive 
Director of Texas Public Power Association. Previously, Mr. 
Baum was the Executive Vice President of the Association of 
Electric Companies of Texas. He received a bachelor's degree in 
economics from Austin College with concentrations in political 
science, regulatory policy, and land-use economics.
    We welcome you all, look forward to your testimony today. 
And Dr. Sanders, if you will begin.

               TESTIMONY OF DR. WILLIAM SANDERS,

                        DEPARTMENT HEAD,

                    DEPARTMENT OF ELECTRICAL

                   AND COMPUTER ENGINEERING,

                     UNIVERSITY OF ILLINOIS

    Dr. Sanders. Thank you, Chairman Smith. Chairman Smith, 
Ranking Member Veasey, and Members of the Committee, I am 
honored to appear before you today. My name is Bill Sanders, 
and I'm the head of the Department of Electrical and Computer 
Engineering at the University of Illinois at Urbana-Champaign.
    I was a member of the committee that wrote the National 
Academies of Science's engineering and medicine consensus 
report entitled ``Enhancing the Resiliency of the Nation's 
Electricity System.''
    The subject of this hearing is resiliency. Resiliency is a 
fundamental and different concept from other abilities such as 
reliability or cybersecurity. In the context of electric power, 
a key insight about resiliency is that it attempts to avoid an 
event--in this case a long-term blackout--but understands and 
admits that avoidance may not be possible and thus works to 
respond as quickly as possible, preserving critical individual 
and societal services and over time strives for full recovery 
and enhanced robustness to further impairments.
    The reference studies focuses largely on the Nation's 
vulnerability to large-area, long-duration outages, those that 
span several service areas and last three days or longer. If 
found that much can be done to make these outages less likely, 
but they cannot be totally eliminated no matter how much money 
or effort is invested. To increase the resiliency of the grid, 
our report argues that the Nation must not only work to prevent 
and minimize the size of outages but must also develop 
strategies to cope with the outages when they happen, recover 
rapidly afterward, and incorporate lessons learned into future 
planning and response effort.
    The offered report also recognizes that at least for the 
next two decades most consumers will continue to depend on the 
functioning of a large-scale, interconnected, tightly 
organized, and hierarchical structured electric grid for 
resilient electricity service.
    In addition to many specific recommendations directed to 
particular organizations, the report makes seven overarching 
major recommendations. They're documented in detail in the 
report, and I'll just summarize them here. First, emergency 
preparedness exercises that include multisector coordination; 
implementing available grid resiliency technologies and best 
practices; supporting DOE research and grid resiliency; 
creating a stock pile of physical components, namely 
transformers, that enhance resiliency; developing a means for 
grid cyber resilience; continuous envisioning of possible 
impairments which could lead to large-scale grid failures; and 
ongoing efforts as needed to mandate strategies designed to 
increase the resiliency of the electricity system. In all of 
these efforts, the joint and collaborative involvement of 
government, industry, and academia is key to their success.
    A new concern to the resiliency of the power cyber portion 
of the grid and how that cyber portion could affect overall 
grid resiliency, the electric power system has become 
increasingly reliant on its cyber infrastructure, including 
computers, communication networks, control system electronics, 
smart meters and other distribution-side assets. A compromise 
of the power grid control system or other portions of the grid 
cyber infrastructure can have serious consequences ranging from 
a simple disruption to--of service with no damage to physical 
components to permanent damage of hardware that can have long-
lasting effects.
    Over the last decade, much attention has been rightly 
placed on grid cybersecurity but much less has been placed on 
grid cyber resiliency. The sources of guidance on protection as 
a mechanism to achieve grid cybersecurity are numerous and 
documented in the report. It is now, however, becoming apparent 
that protection alone is not sufficient and can never be made 
perfect.
    An experiment, for example, conducted by the National Rural 
Electric Cooperative Association and N-Dimension in 2014 
determined that a typical small utility is probed or attacked 
every 3 seconds around the clock. Given the relentless attacks 
and the challenges of prevention, successful cyber penetrations 
are inevitable and there is evidence of increases in the rate 
of penetration in the past year. Serious risks are posed by 
further integration of operational technology systems with 
utility business systems, despite the potential for significant 
value and increased efficiency.
    Given that protection cannot be made perfect and the risk 
is growing, cyber resiliency, in addition to more classical 
cyber protection approaches, is critically important. While 
some work done under the cybersecurity nomenclature can be used 
to support resiliency, the majority of the work today has been 
focused on preventing the occurrence of successful attacks 
rather than detecting and responding to partially successful 
attacks that occur.
    As argued in the report and in our overarching 
recommendation number 5, further work is critically needed to 
define cyber resiliency architectures that protect against, 
detect, respond, and recover from cyber events that occur. So 
the title of this hearing, ``Resiliency: The Electric Grid's 
Only Hope'' is apt. The threat to grid resiliency is 
multifaceted and real, and the time to act is now.
    Thank you for the opportunity to be with you here today. I 
would be happy to answer any questions you have.
    [The prepared statement of Dr. Sanders follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    

    
    Chairman Smith. Thank you, Dr. Sanders. And, Mr. Imhoff.

             TESTIMONY OF MR. CARL IMHOFF, MANAGER,

                   ELECTRICITY MARKET SECTOR,

             PACIFIC NORTHWEST NATIONAL LABORATORY

    Mr. Imhoff. Thank you, Chairman Smith, Ranking Member 
Veasey, and Members of the Committee today, for the opportunity 
to join this important conversation. My name is Carl Imhoff, 
and I lead the Grid Research Program in DOE's Pacific Northwest 
National Laboratory in Washington State. For more than two 
decades, PNNL has supported power system resilience, 
reliability, and innovation for DOE and utilities across the 
Nation. I also chair DOE's Grid Modernization Laboratory 
Consortium, a team of 12 National Labs that support DOE's grid 
modernization initiative with--along with over 100 partners 
from industry and academia such as ERCOT and Texas A&M and the 
University of Illinois.
    Today, I offer three main points regarding grid resilience. 
Point 1, substantial opportunity exists to leverage fundamental 
science and applied research to enhance the Nation's options 
for modernizing the grid in ways that enhance overall 
resilience, and I'll share five examples.
    Point 2, the national laboratories have delivered important 
new approaches to enhance grid resilience, and I'll share some 
recent accomplishments and some emerging new efforts that were 
just recently announced.
    And point 3, state and federal regulatory stakeholders need 
resilience valuation tools in addition to the science and 
technology innovation so that they can better enable the 
required investment to actually deliver the science and 
technology innovations.
    Let's start with science and technology opportunities 
themselves. The definition of a resilient grid addresses both 
avoiding and resisting outages before an incident occurs, as 
well as rapidly responding to an incident and recovering as 
quickly as possible afterwards, two sides of the coin. Science 
and technology can contribute on both sides, avoidance before 
events and recovery afterwards.
    Specific S and T topics we think are vital to the future 
include the following: enhanced, real-time, predictive 
operational tools to detect problems early and steer around 
them; enhanced precision planning tools to better predict risk 
and design accordingly to make systems more resilient; advanced 
grid architecture, coordination, and control of the grid to 
pinpoint new structural risks and options on how to control the 
system and recover it more quickly; number 4, advanced data and 
visual analytic tools for better situational awareness across 
all hazards whether it's physical, weather, cyber; and then 
number 5, energy storage at an affordable price point to 
provide a new grid flexibility option for the future.
    For the hearing objective of improved cyber resilience, 
advanced data analytics and new grid architectures and controls 
would substantially improve the situational awareness of cyber 
threats and provide more resilient control options to present--
to prevent further system damage. And advanced predictive 
operation tools and energy storage would help operators limit 
the spread of cyber-induced outages.
    For the hearing objective of physical resilience, an 
important emerging tool is the development of design basis 
threat assessments to frame the physical threat scenarios of 
highest priority to individual utilities. These systematic 
threat assessments, linked with enhanced planning tools, would 
better guide resilience investments for utilities and other 
stakeholders.
    Switching now to progress in the national laboratory grid 
modernization efforts, a foundational project in that effort is 
developing metrics to support government and industry efforts 
in grid modernization. Grid resilience is one of those six 
metrics. It's one that's still under debate in terms of its 
definition, and it's closely related to the traditional metric 
of grid reliability, as well as emerging metric called grid 
flexibility.
    Other projects include dynamic contingency analysis tools 
to help planners better avoid white area cascading outages like 
we experienced in the Northeast in 2003. This tool was 
developed in partnership with DOE and ERCOT and soon will 
become part of ERCOT's regular planning efforts.
    Grid analysis and design for resilience was another recent 
GMLC project delivered for New Orleans to help coordinate 
microgrids and other critical functions like water pumping, et 
cetera, to help them ride through emergencies.
    Finally, DOE awarded $32 million last month to fund seven 
resilient distribution public-private projects around the 
country to validate the performance of new resilience 
innovations emerging from the GMLC portfolio.
    My third point is that science and technology advances must 
be complemented by new tools to help utilities and regulators 
chart the investment strategies to improve grid resilience. 
Utilities at all levels, consumer-owned and, must have the 
capacity to understand the value of alternatives to improve 
their system, and state regulators need the same tools to 
provide the regulatory incentives to deliver the resilience 
improvements at scale. The National Labs are developing such 
evaluation framework with state and industry participation.
    So I conclude that science and technology innovation can 
enable a modernized grid that we can see, control, and protect 
like never before. Big data management, new data analytics, 
machine learning, and exascale computing will be central to 
delivering this modern grid and maintaining U.S. leadership. 
Grid resilience is intricately linked to other attributes such 
as reliability and flexibility, and new tools to value and 
simulate grid resilience concepts in concert with public-
private field validation will accelerate national grid 
modernization efforts.
    I look forward to answering any questions.
    [The prepared statement of Mr. Imhoff follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    Chairman Smith. Thank you, Mr. Imhoff.
    And, Dr. Dillingham.

               TESTIMONY OF DR. GAVIN DILLINGHAM,

                       PROGRAM DIRECTOR,

                      CLEAN ENERGY POLICY,

                HOUSTON ADVANCED RESEARCH CENTER

    Dr. Dillingham. Good morning. Chairman Smith, Ranking 
Member Veasey, and Members of the Committee, thank you for the 
opportunity to appear before you today. I'm Gavin Dillingham, 
Program Director of Clean Energy Policy at HARC. We're a 
nonpartisan research institute in the Woodlands, Texas. I'm 
pleased to provide testimony on the resiliency of the United 
States' power infrastructure, particularly in respect to risks 
posed by extreme weather events.
    Thank you for the opportunity to discuss the findings of 
the latest NAP report on resilience. It's very timely and 
important. It pushes forward the discussion that we must have 
to ensure a more resilient power system.
    A key area of interest for me is the discussion on the 
increasing intensity of extreme weather and the impact on the 
electric system. The systems must be designed and constructed 
for a multitude of extreme weather events, and I wanted to 
provide one example and specific to Texas. Texas has 
experienced multiple extreme weather patterns resulting in 
significant power outages in the last few years.
    First of all, there was the statewide drought of 2011/2012. 
This multiyear drought placed considerable pressure on power 
generation, which is highly dependent on water for cooling. 
During the drought, there was not enough water to cool the 
plants or the water was too warm for cooling. There was a 
significant concern by ERCOT about losing millions of 
potentially several thousand megawatts of power if the drought 
did not end.
    A recent Argonne National Labs study finds--that looked at 
the drought situation finds that the Texas grid could face 
severe stress due to lack of water availability, as well as 
derating of thermal electric plants due to high water 
temperatures. The stress on the power system due to this 
drought is not only limited to Texas. It's an issue across the 
entire western United States, particularly in the arid States.
    And Texas, beyond drought, we've had three 500-year-plus 
flood events in the last three years, the most recent being 
Hurricane Harvey, which dumped about 27 trillion gallons of 
water along the Gulf Coast. If you're familiar with Texas and 
the eighth wonder of the world, that's 68,000 Astrodomes'--or 
86,000, I'm sorry, Astrodomes' worth of water. If you actually 
added that out, it'd be about 400 square miles about 128 feet 
high, I mean, a huge amount of water at one point, left close 
to one million utility customers without power.
    The other two floods we've had was the tax day flood of 
2016, and the 2015 Memorial Day flood. Flooding can cause 
significant damage to transmission and distribution systems, 
particularly substations, and the potential long-term duration 
of floods can significantly delay the restoration of power to 
communities.
    I'd be remiss not to mention Hurricane Ike, which happened 
in 2008. During Hurricane Ike, 2.1 million customers lost 
power. Many of them were out of power for over two weeks. which 
is actually fairly small when you look at what just happened 
with Hurricane Irma where there were over 9 million customers 
that lost power. And then you look at the Hurricane Maria, 
which essentially took out the entire island of Puerto Rico. 
Texas also deals on average with 146 tornadoes per year, 
wildfires and ice storms, and most recently, the Texas 
panhandle, January 2017 ice storm that cut power to 31,000 
customers.
    This is one example of one State. Similar stories of 
extreme weather events can be found across all States. For more 
info, you could check out the Department of Energy's U.S. 
Energy Sector Vulnerabilities to Climate Change and Extreme 
Weather.
    Natural disasters will increase in number and have already 
increased in intensity, and this puts our existing grid at 
risk. It's very difficult to determine the timing, location, 
and intensity of these events. With this level of uncertainty 
and when financial resources are limited, it is challenging to 
make the appropriate investment decisions. When decisions are 
not made, infrastructure is not built, and our systems are not 
prepared. This will result in significant damage and loss.
    Uncertainty is the enemy of action. Fortunately, we're 
seeing the deployment of downscaled regional climate models 
that provide improved certainty of the likelihood of extreme 
weather events. Texas Tech University Climate Science Center is 
a great example of doing some of this work. Better visibility 
into future climate patterns will improve planning for power 
systems and decision-making, and the--more investment must go 
into these models to reduce further uncertainty.
    Some of the solutions we'd like to discuss, first of all, 
in the United States, the power portfolio is very highly water-
dependent. Approximately 85 percent of our power generation 
requires water. Fortunately, systems not requiring water being 
deployed across the country largely in the form of wind and 
solar generation systems, battery storage, and microgrid. 
However, the speed at which these systems are being deployed 
does not look to significantly shift the grid away from water 
dependency. Projections differ significantly, but regardless of 
what projection you look at, both--most of them look at over 60 
percent of the power system dependent on water out to 2050.
    The technology and capability is available to quickly 
deploy these systems. Unfortunately, policy and regulations 
have not kept up. It should hearten the Committee to know that 
the recently released DOE grid reliability study finds 
increased deployment of renewable resources has not and will 
not negatively impact the operation of the grid. This should 
remove some of the policy and regulatory headwinds here.
    A key issue is availability of funding. Two funding 
mechanisms that could increase the deployment of renewable 
energy is to allow renewables to participate in master limited 
partnerships, similar to what fossil fuel assets are allowed to 
participate in, and allowing the deployment of green bonds to 
fund renewable infrastructure. These are two market-based 
funding solutions.
    Other hindrances are the patchwork of grid interconnection 
standards, old utility models that do not account for the 
benefits of DER. We should also start looking into PEER, 
performance excellence electricity renewable--renewal. These 
are voluntary power resilience standards that should be 
considered to improve the reliability and resilience and 
operational effectiveness of our grid. And then also looking at 
microgrids and microgrids with combined heat and power. These 
are proven systems to improve--increase the resilience of 
critical infrastructure. It's estimated that 3.7 gigawatts of 
microgrid systems will be deployed by 2020, which is small in 
comparison to other resources. But a very important resource as 
we look for systems that are resilient and have demonstrated 
their efficacy through a wide number of natural disaster 
events, most recently being the UTMB in Galveston during 
Hurricane Harvey.
    The DOE has actively worked to increase deployment of CHP 
through its Better Buildings Initiative Resiliency Accelerator 
and Combined Heat and Power Technical Assistance Partnership. 
It is recommended this technical assistance continue.
    To conclude, the tendency is to count the number of 
hurricanes and extreme weather events and make that the key 
climate metric. The numbers are increasing. There is 
uncertainty when exactly there'll be a material increase, but 
that is largely irrelevant as the intensity of these storms 
increase. There's considerable agreement by climate models that 
they will continue to do so. We are not prepared for this 
growing intensity.
    Natural disasters threats are real and now directly impact 
the operation of our grid. If we continue business as usual, 
systems will become more vulnerable, the economic and social--
societal disruption cost will increase, and recovery will be 
less sustainable to growing demand on constrained resources. 
The technology and systems exist that are being deployed now to 
limit this risk. However, barriers exist with funding, 
regulations, and utility models that hinder deployment of these 
resilient systems.
    Thank you for the opportunity today. Sorry for going long.
    [The prepared statement of Dr. Dillingham follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Chairman Smith. Thank you, Dr. Dillingham. That is fine.
    Mr. Baum.

                  TESTIMONY OF MR. WALT BAUM,

                      EXECUTIVE DIRECTOR,

                 TEXAS PUBLIC POWER ASSOCIATION

    Mr. Baum. Thank you, Mr. Chairman, Ranking Member Veasey. I 
appreciate the opportunity to testify today. My name's Walt 
Baum, and I'm the Executive Director of the Texas Public Power 
Association. TPPA represents the 72 municipally owned utilities 
in the State of Texas. We represent about 15 percent of the 
customers. In Texas you also have electric co-ops that serve 
another 15 percent of the customers, and then the investor-
owned utilities serve the rest. TPPA is also a proud member of 
American Public Power Association, APPA.
    I'm here today to talk about the real world--a real world 
example of a resilient grid and that is how ERCOT, the grid the 
serves most of Texas, recovered from Hurricane Harvey. I don't 
have to tell any of you about the devastation that Hurricane 
Harvey caused. Many--all of you have seen it; many of you 
experienced it firsthand. It was an incredible storm that Dr. 
Dillingham talked about, all the water and wind that was 
dropped. It really was two different storms when it hit Texas. 
It was a wind event in the Corpus area where first made 
landfall as a category 4 hurricane, and a lot of transmission 
was damaged, but then, as it moved on to the coast and into the 
Houston and the Beaumont, Port Arthur areas, it became much 
more than just a rain event. And utilities there were dealing 
with flooded substations and other issues.
    In the Corpus area, AEP, the utility which serves the 
Corpus area, they alone had over 550 transmission structures 
that were damaged and 5,700 distribution poles that were hurt 
by the storm. And, as we said, then in the Houston and Beaumont 
and Port Arthur areas you had flooded substations. We actually 
had to bring in some temporary mobile substations to replace 
those flooded substations, which was--which is newer technology 
that probably wasn't available 10, 15 years ago. We're proud of 
that.
    It was a tough storm, but the story is largely good in 
Texas. There were about--right at about 1-1/2 million customers 
were affected but not at any time. Because of the way that the 
storm was very slow-moving, we never had more than about 
300,000 customers out at any one time. And all customers were 
restored--96 percent of the customers were restored within 14 
days when the storm first made landfall. There were a few 
others that took a little bit longer to restore just because of 
flooding and high water. But as of--20 days after the storm 
originally made landfall, all customers who could take power 
were back and receiving power. And we're really proud of that 
work and the tireless work of linemen and line workers to 
repair the grid.
    Reliability and resiliency are really closely intertwined 
concepts in the electric grid. Reliability is when you turn on 
that switch is--are the lights going to come on? And resiliency 
is when those lights don't come--turn on when you flip that 
switch, how long does it take to get them back on. Our goal is 
always 100 percent reliability, but because we can't prevent 
weather or other manmade emergencies, a reliable grid must have 
built-in resiliency.
    Every storm's different and Harvey's historic. And because 
I'm from Texas, this is where I'm contractually obligated to 
say this wasn't our first rodeo. Utilities nationwide plan and 
coordinate to prepare for these types of events, and plans 
address how crews will be deployed and how information will be 
shared with customers and when to call for additional help. 
Grid resiliency is really part of day-to-day operations in the 
electric utility industry from going out and doing tree 
trimming and vegetation management to when you're planning the 
grid, planning it with redundancy in mind, and grid operators 
and utilities with generation plan for reserve margins to make 
sure there's ample power during our peak times, even if large 
generation units go off-line. Transmission and distribution 
systems are always designed with redundancy, and ERCOT actually 
conducts annual Black Start training which is done to simulate 
the total loss of our grid and bringing it back up from zero.
    Mutual aid is also a key important part of resiliency. Just 
as firefighters, police officers, and other emergency 
responders combine forces to help rebuild communities, line 
workers and other personnel do that as well. Crews from all 
across Texas and other areas of the country shared in our 
restoration efforts. Utilities that were most affected called 
in crews from other areas. In our systems, municipally owned 
utilities went to go help out the investor-owned utilities 
after getting there systems back online. CPS Energy sent crews 
to help AEP Texas and CenterPoint. And not just electric 
workers, they also sent IT personnel to help them get their 
networks back up and running. APPA, the American Public Power 
Association, has its own mutual aid network, and they 
coordinate with EEI, the investor-owned trade associations, and 
NRECA, the electric co-ops associations.
    During Harvey, we did daily calls with APPA to talk about 
how the municipally owned utilities were affected and then 
moved on to calls that DOE ran in which all of the different 
sectors of the electric industry got together to help. And 
similar coordination was in place for Irma.
    Once restoration was complete in Texas, we sent many crews 
to Florida and CPS Energy, Austin Energy, Denton, Garland and 
other Texas utilities were all out there helping Florida. And 
we have our own mutual assistance group in Texas as well to 
first respond to our different systems.
    While the story is positive, each event is also a way for 
individual utilities to learn and be better prepared for the 
next round of storms. Our new Public Utility Commission Chair 
had a hearing last week in which she identified several issues 
for the industry and government partners to work together to 
prepare for the next storm. My members' Public Power utilities 
and the entire electric industry are committed to sharing 
information, technology crews, and equipment to continue to 
keep the lights on.
    I especially want to thank all the crews and personnel in 
our industry. The tireless work of the line workers and support 
staff behind them is truly inspirational. It's also serious and 
dangerous business. Unfortunately, the industry lost a young 
lineman last month who is helping to restore power near 
Victoria.
    Thank you very much for the opportunity to testify, and I'm 
happy to answer any questions.
    [The prepared statement of Mr. Baum follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Chairman Smith. Thank you, Mr. Baum.
    Thank you all for your testimony, and I'll recognize myself 
for five minutes for questions. And let me direct my first 
question, Dr. Sanders, to you.
    You will be challenged, by the way, to give a brief answer 
to my question, which is what are the short-term and long-term 
steps that need to be taken to protect the electric grid from 
cyber attacks?
    Dr. Sanders. You're right. Professors are not known for 
being brief, but I'll do my best.
    Chairman Smith. Okay. And if you have to pick, choose the 
short-term as opposed to long-term.
    Dr. Sanders. Okay.
    Chairman Smith. Yes.
    Dr. Sanders. So, first, let me say that there's a large 
effort underway today much different than there was at the turn 
of the century to protect the grid against cyber attacks. Since 
the early 2000s the Department of Energy, the National Science 
Foundation, the National Labs, and others have been working in 
this area, and substantial progress has been made. So, in a 
sense, what needs to be done and I think what we are doing is 
taking a concerted approach where industry, government, and 
academia come together to work on this problem.
    Many ideas, technical ideas and technical solutions, have 
been developed, and a short-term challenge and maybe the most 
important short-term challenge is to find ways within the very 
multifaceted landscape that includes regulation, that includes 
issues with cost, that includes States and Federal Governments 
to find ways to implement those solutions. We've made 
substantial progress there, but there are many things that 
still have been developed that need to be implemented to make 
our grid secure.
    Chairman Smith. Okay. Thank you, Dr. Sanders.
    And, Mr. Imhoff, what can the government do to encourage 
innovation that will promote resiliency?
    Mr. Imhoff. Another short answer. I think the key is to 
provide leadership, to encourage the combination of fundamental 
advances in mathematics, in control theory, and data analytics 
and advanced computing and link those closely with industry 
through bodies such as NERC, the Electric Subsector 
Coordinating Council, which is a strong government industry 
body, work with NRECA and APPA and others to help move those 
fundamental advances to practice and implementation within 
industry. Step one would be field validation. Most of those are 
cost-shared. I think most industry members would argue that 
they've been very productive. So I think from the federal 
standpoint, leadership to help drive forward the fundamental 
knowledge to help us innovate and stay in front of the wave is 
a fundamental contribution.
    Chairman Smith. Okay. Thank you, Mr. Imhoff.
    And, Mr. Baum, in what way does the Texas electric grid--in 
what way does it differ from other grids and why?
    Mr. Baum. Well, the Texas electric grid is--we talk a lot 
about--you know, Texas is very different and Texas has its own 
grid. ERCOT covers 85 percent of the area of the State and 
about 90 percent of the load. It doesn't cover the entire 
State. Areas in the Panhandle and the corners of Texas aren't 
part of the grid, but we are our own grid. Power that is 
generated in Texas largely stays in Texas. Of about 70,000 
possible megawatts of generation, at any time we can only 
import or export under 1,000 megawatts. So, you know, we 
truly--we're--I like to say that Texas is an island a lot in 
electricity. That sounds a little calloused now with what's 
going on with Puerto Rico, but we pretty much are on our own, 
and so, you know, that--we are different from the rest of the 
country in terms of that goes.
    Chairman Smith. Okay. But in positive ways that you just 
mentioned because the coverage and so forth. Okay.
    Mr. Baum. Yes.
    Chairman Smith. Thank you, Mr. Baum.
    Dr. Sanders, one last question for you. Would we benefit 
from simplifying our structure having fewer government agencies 
and departments involved? I guess it depends on how you 
simplify, but do you think that's a direction we should go? And 
I think that's one of your recommendations anyway.
    Dr. Sanders. So the committee report was neutral on the 
actual government structure to be used. The committee felt very 
strongly that this is a complicated issue, that there are 
different issues, for example, the interaction between DHS and 
DOE that are working well, and--but these need to be 
correlated.
    Chairman Smith. Okay. Thank you, Dr. Sanders. And that 
concludes my time, and the gentleman from Texas, Mr. Veasey, is 
recognized for his questions.
    Mr. Veasey. Thank you, Mr. Chairman.
    I wanted to ask Dr. Dillingham a couple of questions 
particularly as it relates to climate change and rising global 
temperatures. I know that there are a lot of people including 
oftentimes on this committee we hear that--we don't know human 
involvement as it relates to climate change or some people that 
outright deny that climate change is happening even though 
there's a lot of consensus within the scientific community that 
there is some manmade contributions as it relates to climate 
change.
    And I wanted to ask you, as we consider potential 
infrastructure investments, do you think that States and 
utilities should consider climate change as it relates to the 
resiliency of the systems?
    Dr. Dillingham. Yes, thank you for that question. Yes. And 
what we seem to find is that when we talk about climate change, 
there's usually like a specific type of event that's pointed to 
like hurricanes or to floods or just one particular type of 
weather phenomenon. And when you look at climate change, 
there's a significant number of weather phenomena that are 
happening here for what I mentioned, from drought to floods to 
hurricanes to ice storms, and all of these are events that are 
becoming more intense and more extreme. And the--you know, 
we've seen that actually personally, and we've also seen that 
within the future climate models that are being deployed.
    One of the things that, you know, needs to be considered 
and we've been discussing this a lot more at HARC and across 
the State is, you know, now that these climate models, the 
downscaled regional climate models are becoming a lot more 
accurate in understanding the intensity and likelihood of these 
events happening. It needs to be at least part of the 
conversation here. We have projections for--in ERCOT, for 
example the amount of solar and wind that are going to be 
deployed. That does not take into--that takes into account 
historical weather patterns but that does not take into account 
future weather patterns or future weather phenomena. And so if 
we have models that were getting greater--we're feeling more 
comfortable with and feel like they have better accuracy, it is 
important that we start including those within our projections 
and understanding on how the grids operate for the future so we 
can start developing in that regard.
    Mr. Veasey. Well, thank you very much. That sounds 
reasonable. What about insurance companies? Do you think that 
they need to consider changing environmental factors when 
engaging with potential clients?
    Dr. Dillingham. The insurance companies are way ahead of us 
on this. They already are doing this. They have their 
catastrophe models and now they're bringing in the downscaled 
climate models. And many of their decisions now are based on 
potential future climate factors that they're looking into and 
what's the risk of us funding this infrastructure into the 
future. And so what you're seeing now is actually development 
of resilience bonds that are actually being coupled with 
catastrophe bonds. And these resilience bonds are largely put 
in place by the insurance companies to mitigate risk. The 
Brookings Institute had a nice report on this a couple years 
ago discussing the opportunity to bring the--in resilience 
bonds into the market to bring in another kind of funding 
source essentially, bring in the financial market to help 
better develop more resilient infrastructure. And so the 
insurance companies are way ahead in this regard.
    Mr. Veasey. This is again for you, Dr. Dillingham, and 
Walt. As you know, Hurricane Harvey was not the first hurricane 
to damage Texas and won't be the last. This is, you know, 
something that we've had experience with and will continue to 
have experience with. One--and communities are trying to look 
for ways they can harden their infrastructure to deal with 
future catastrophes. One notable example in Houston is the wall 
that was built after Hurricaine Allison to protect the 
substation that provides power to the medical center.
    I wanted to ask you how have communities adapted to the 
changing conditions that we are experiencing as a result of 
climate change?
    Dr. Dillingham. There has been--I'll just speak specific to 
the Houston region. There has been some significant activity or 
growing activity in this regard. UTMB Galveston is an example 
that was flooded out during Hurricane Ike. They had to 
essentially close that down, and there was questions whether or 
not it'd even become operational again.
    But what they've done since then is they've put in a 
combined heat and power system, which is an onsite natural gas-
generated system that operated great during Hurricane Harvey. 
They also built that above grade. It's up on the second floor, 
so it prevents floodwaters from getting in there and they also 
build a flood wall around it. So there's steps happening 
especially within critical infrastructure, hospitals 
particularly, wastewater treatment plants that are going into 
place, and a lot of it is focused on distributed generation 
and--which is typically a combined heat and power type system 
being put in place.
    As far as just in the community in general when you look at 
the parts of the community that have started taking action to 
be more resilient--so Meyerland is a neighborhood in Houston 
that has flooded multiple times. The homes that are starting to 
build above grade, the homes that are taking these--you know, 
starting to put in these resilience standards to make sure that 
they're above grade, none of those flooded. So--and they're--
and those homes are in good shape.
    And so it's a matter of starting to put in place these 
voluntary resilience standards, educating communities, 
educating project developers, engineers, architects to 
understand what is the way to start building more--in a more 
resilient fashion but do it in a cost-effective manner. You 
can't do it in Texas if you're going to mandate regulations, 
and you're not going to do it if it's expensive. We built 
ourselves on low cost of business and low cost of living.
    And so what the important piece is is how do you implement 
this stuff and how do you build capacity within our building 
community to allow them to do this in a cost-effective way?
    Mr. Veasey. Thank you. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Veasey.
    And the gentleman from California, Mr. Rohrabacher, is 
recognized for questions.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
thank you, Mr. Chairman, for holding this hearing today. And it 
is something I just think that we have not given serious 
attention to this. I know we've had several Members over the 
years who have made it their crusade to talk to us about EMP 
and other threats, but it just--nothing seems to be--get done 
and there doesn't seem to be a national strategy that actually 
coincides with how vital this could be to the well-being of the 
American people.
    If we have something go crazy with the sun, I understand it 
could knock out all of our grid. I mean, you'd knock out 75 
percent of the people's electricity in the United States of 
America. I mean, this is a tremendous threat that--and again, 
we're talking today about reliability and resilience.
    Let me talk to you about some real specifics rather than 
having the experts get together and talk about it, all right? 
What about a more diversified power system that we would then 
target that would be a much more diversified power source for 
the American people? Would that be a major step towards dealing 
with this potential threat? Anybody want to say anything about 
that?
    Dr. Sanders. You can go first. I'll go second.
    Mr. Imhoff. Thank you for the question, and I think that 
diversity, whether it's in diversity of fuel mix, diversity of 
generation and other things provides resilience and robustness 
to the system.
    Mr. Rohrabacher. Well----
    Mr. Imhoff. And from the standpoint of EMP and space 
weather or----
    Mr. Rohrabacher. Right.
    Mr. Imhoff. --geomagnetic activities, there are 
differences. The higher risk is at the further northern 
latitudes and the southern latitudes. I think the good news, 
sir, is that over the last year, both DOE has put in place an 
initial program plan dealing with the space weather issues. The 
Electric Power Research Institute has actually begun working on 
standards and operational approaches for component purchase and 
installation that would begin to deal with these issues. NERC 
has actually set two standards that are the beginning of a 
journey that would help utilities better plan for and defend 
and operate through these storm events.
    Mr. Rohrabacher. Well, let me get real clear on this. We 
now depend on big, huge electric plants, and it seems to me 
that we could have, for example--let me ask you whether this 
would have been one solution--if we would have determined 20 
years ago or 30 years ago that we're going to build small 
modular nuclear reactors which are now we are told we are very 
capable--have been capable of building, would that in some--
would that type of diversification help us solve this or deal 
with this issue?
    Mr. Imhoff. So I think diversity, regardless of the type, 
regardless of whether it's natural gas or nuclear, can provide 
some resilience, but any device is going to be--has some risk 
in terms of electromagnetic fields. They would need to have----
    Mr. Rohrabacher. Right.
    Mr. Imhoff. --the protection, the shielding, et cetera, on 
critical components regardless of the type of generation. So 
nuclear itself is not more or less robust.
    Mr. Rohrabacher. So--but if we--so we have smaller nuclear 
power plants in various communities, for example, which I 
understand we're capable of doing in very--which are, by the 
way, safer from what I understand than light-water reactors, 
that that would not protect--give us more protection than to 
have it in one major power plant?
    Dr. Sanders. So let me follow up a bit on this. As Mr. 
Imhoff said, diversity in the source of generation, both in the 
type and in the geographical distribution of the generation, 
can be helpful. With regard to the kind of solar events that 
you talk about, the same issues, whether we're diversified or--
to different degrees or not will apply with regard to the 
resiliency of the transmission and distribution system of the 
overall grid. There are very interesting strategies that are 
talked about in the report. These include microgrids. These 
include----
    Mr. Rohrabacher. Right. Let me ask you this. Would it be 
easier to fix if you've got a major source versus many smaller 
sources, a big nuclear power plant versus small modular nuclear 
power plants? No?
    Dr. Sanders. I'm not an expert enough to know that.
    Mr. Imhoff. I can't speak to that either, sir.
    Mr. Rohrabacher. Okay. Well, let me just note that we also 
have solar panels that--you know, would that be affected as 
well, if a house--you go down right to the greatest 
diversification which is individual homes, would this be more 
resilient and have more protection?
    Mr. Imhoff. I can't speak to the inherent robustness of 
solar panels themselves per se, and I don't think the outcome 
is to move to completely distributed energy. There are some 
values of some of the large centralized plants as well, so I 
think it's really an issue at each region, at each electrical 
region, whether it's Texas or the Western Coordinating Council 
or the Southeast, they need to look at their fuel diversity, 
they need to look at their prices, they need to look at their 
vulnerability to things like geomagnetic storms and figure out 
what's that right balance between centralized and decentralized 
activities.
    The one challenge, sir, what's changing at the edge in 
terms of today's grid is there's an explosion of new devices 
and new services and new innovations coming at the edge, many 
of which are outside the boundary of the utilities. Microsoft 
is providing its own power. Walmart is generating its own 
renewables on rooftops in their stores all around the country, 
so these are dramatic shifts in how we plan the system, as 
opposed to how we did it 20 and 30 years ago, so I think it's 
regional and local. I think they each need to figure out what's 
the right balance of distributed versus centralized generation 
and supply, and that's part of what I think is so important 
about regional planning activities across the country, doing 
what makes sense for them locally.
    Mr. Rohrabacher. Okay. Thank you very much.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    The gentleman from California, Mr. Takano, is recognized.
    Mr. Takano. Thank you, Mr. Chairman.
    On Friday, the Secretary of Energy submitted a proposed 
rule to the Federal Energy Regulation Commission, otherwise 
known as FERC, with the explicit purpose of adjusting market 
rules to favor coal and nuclear power plants. The justification 
that they provided was for--for this was that these sources 
have several weeks of fuel onsite and therefore are inherently 
more resilient than natural gas or renewable energy generators.
    However, this assertion, along with the overall proposal, 
has received widespread criticism not only from the renewable 
and natural gas industries but from respected independent and 
even conservative experts on power markets. For example, 
Utility Dive just published a point-by-point refutation of this 
misguided effort by Alison Silverstein, who is the lead 
author--who is lead author that DOE hired to draft the grid 
report that the agency used to justify the new proposal.
    The conservative R Street Institute also released a 
thorough analysis on Sunday, which concluded that this proposal 
is, quote, ``an arbitrary backdoor subsidy to coal and nuclear 
power plants that risks undermining electrical competition 
throughout the United States, end quote''. And Nora Mead 
Brownell, a former Republican FERC commission said in an Energy 
& Environment News article posted yesterday that she, quote, 
``has never seen a credible argument, not one, that there is a 
problem with resiliency and reliability,'' end quote, due to 
coal and nuclear power plant retirements.
    On the contrary, a story published in E&E News on Friday 
titled, quote, ``Flooded Texas Coal Piles Dampen Reliability 
Arguments,'' end quote, is--and it's a clear example of how 
poorly justified this proposed rule really is.
    Now, each--gentlemen, I need to get through--I want to get 
to several questions. Do you think subsidizing the coal 
industry is an efficient and cost-effective way to make the 
grid more resilient? I would prefer a yes or no answer.
    Dr. Sanders. So I think, first and foremost, we have to 
remember that resiliency is a system issue. No single source of 
generation can determine the resiliency of the grid. It depends 
on having enough generation in a distributed fashion, having 
the transmission and distribution infrastructure to deliver the 
power to the consumer----
    Mr. Takano. Excuse me, Mr. Sanders, I've got to get 
through----
    Dr. Sanders. Okay.
    Mr. Takano. --a few questions. Can you kind of give me a 
yes or no, I mean, as far as--I mean, my question is pretty 
simple. Do you think subsidizing the coal industry is an 
efficient and cost-effective way to make the grid more 
resilient knowing all we know about coal and competition----
    Dr. Sanders. Right. Right. The report did not find that to 
be true.
    Mr. Takano. Okay. Thank you. Mr. Imhoff?
    Mr. Imhoff. So, just quickly, resilience is a system 
activity, and what I think is more important is what are those 
plans replaced with? If they're replaced with combined-cycle 
natural gas or other things, those have equal and sometimes 
better resilience capabilities than the coal plant. I am not a 
markets person, so I can't really speak to the issue of 
subsidy.
    Mr. Takano. All right. Thank you. Dr. Dillingham?
    Dr. Dillingham. I would have to answer no. Being from the 
State of Texas, we're not a big fan of subsidies and especially 
in this case.
    Mr. Takano. Thank you. Thank you for that. Mr. Baum?
    Mr. Baum. The key, as has been mentioned is, you know, 
multiple fuel sources and redundancy on the grid, but I don't 
think any special subsidies is needed.
    Mr. Takano. So subsidizing coal industry is not an 
efficient and cost-effective way to make the grid more 
resilient? Probably not? Would that be fair to say, Dr. Baum?
    Mr. Baum. Probably not.
    Mr. Takano. Okay. Thank you. Thank you. Mr. Imhoff, in your 
testimony you discuss how energy storage could provide more 
flexibility in how operators might mitigate cyber outage and 
improve recovery. Can you expand more in the specifics about 
energy storage is able to accomplish such a task?
    Mr. Imhoff. Yes, thank you, Mr. Takano, and thank you for 
your leadership on the advanced battery grid caucus.
    Mr. Takano. You're welcome.
    Mr. Imhoff. The issue around energy storage is it 
fundamentally decouples supply from demand. It's like a shock 
absorber for your truck that you drive down your ranch road. 
The shock absorbers help smooth it out and enable you to keep 
from spilling the coffee in your lap. Energy storage will help 
decouple supply from demand, and what that adds to the grid is 
flexibility. So if there's a cyber attack that takes out a 
certain substation or certain supply sources, having that added 
flexibility in terms of energy storage linked with advanced 
control and power electronics that are smart power electronics 
give the operator more degrees of freedom for how they steer 
around that problem. So that's the role it will play, adding 
more flexibility to the system to respond to an outage.
    Mr. Takano. Well, and it's also energy-source neutral, so 
if we found--in the case of Mr. Rohrabacher--small nuclear 
power plants were more efficient than gas--than the gas-powered 
plants, I mean, this still would be a tremendous addition to 
the resilience of the system.
    Mr. Imhoff. It is source-neutral, correct.
    Mr. Takano. Thank you, Mr. Chairman. I yield back.
    Chairman Smith. Thank you, Mr. Takano.
    The gentleman from Florida, Mr. Posey, is recognized.
    Mr. Posey. Thank you very much, Mr. Chairman, and thank 
you, gentlemen, for appearing today.
    Have any of you read the book One Second After? It's a 
novel by William Forstchen. It was a New York Times bestseller. 
Well, it was obviously written from a report about the EMP, 
electromagnetic pulse, threat our nation faces, and if you're 
in the energy business, I would really recommend the book to 
you to read.
    A little over a year ago, the Earth's orbit missed by about 
one week a solar eruption which seems would have taken out all 
our satellite communications and probably destroyed our power 
grid. My question to you is what you think we should be doing 
to protect our citizens against that threat? About 60 seconds 
each would be appreciated with Dr. Sanders first.
    Dr. Sanders. So, first, let me say that I am not personally 
an expert on this topic, but we did have expertise on our 
committee and I've--on this matter Tom Overbye from the 
University of--or from Texas A&M University is an expert on 
this topic. I talked with him about this issue, and this is an 
issue of intense research. This is an issue of intense study, 
and there are solutions that are beginning to emerge but 
they're in the early stages. They include raising awareness to 
the potentially severe impacts of GMDs. There is software now 
to plan for the impacts of GMD on systems, and people are using 
that to do studies.
    We're at the stage really where engineers are getting down 
to looking at what the real issues are. There are magnetometers 
that are being installed across the country to measure these 
kinds of disturbances. In fact, the University of Illinois has 
one on some land that my department owns right off site. And 
research is ongoing with groups like NERC and EPRI helping in 
this effort.
    So in summary, we don't have all the solutions we need now, 
but progress is being made.
    Mr. Posey. Thank you, sir.
    Mr. Imhoff. To follow up, nor am I an expert but I will say 
the following. We have a number of disparate activities in the 
country related to electric magnetic pulse. We have a spread of 
tools, but what we don't have is an integrated toolset, nor do 
we have a common reflection across the three different 
waveforms, E1, E2, and E3, and we need to get to that so that 
we can provide guidance to industry to--for them to better 
shield and protect the new devices that are being produced for 
the grid for which we are modernizing and investing heavily 
each year.
    So there is work underway. There are coordinating groups 
trying to drive that, but I think we need a more focused 
national effort to move towards a common set of integrated 
tools that reflect all three of those E1, E2, E3 waveforms. And 
the challenge is--and some of the solutions for geomagnetic 
sometimes might interfere or confound the solutions for the EMP 
waveform, so that's why we need this integrative view of the 
waveform so we can get a common voice to industry on how to 
design around this issue.
    Mr. Posey. Thank you.
    Dr. Dillingham. I would have to say Dr. Sanders and Mr. 
Imhoff are the experts here, and they did a good job in as far 
as explaining stuff. I learned something there, but I cannot 
speak to this issue.
    Mr. Baum. And I would say, you know, this is an issue that 
is being studied right now. EPRI, the Electric Power Research 
Institute, is conducting a multiyear study on this where they 
are also releasing what they find every few months and all 
different types of utilities, investor-owned, municipally 
owned, co-ops are participating in that EPRI report.
    I know there are--my feeling is the first thing we need to 
do is study and figure out what if any technical changes needs 
to be made to the grid, but I think you need to do the study 
and research first. There are people out there saying we've got 
this quick fix that if you buy this type of Faraday cage or 
this type of new equipment, you know, then you'll fix your 
problem, but I think you need--I think we need more study first 
and then decide what if any new equipment needs to be made.
    Mr. Posey. Thank you. Which agency do you see having taken 
the lead in this or do you think should be taking a lead in it? 
We've had hearings on this before, and I found the industry had 
very little interest in this.
    Mr. Imhoff. So, my understanding is a group called the 
Mission Executive Council is actually working on this, and I 
believe that that council has represented some Department of 
Energy and from the Department of Defense and other agencies 
that are linked to the satellite systems, et cetera. So I would 
start with Mission Executive Council. I don't know a lot about 
them, but I believe there already is some coordination across 
the key involved agencies.
    Mr. Posey. Okay. Thank you, Mr. Chairman. I see my time is 
expired.
    Chairman Smith. Okay. Thank you, Mr. Posey.
    The gentleman from New York, Mr. Tonko, is recognized.
    Mr. Tonko. Thank you, Mr. Chair, and thank you to our 
witnesses for being here today. Obviously, this hearing was 
rescheduled due to the recent natural disasters. In light of 
those disasters, I believe it's an appropriate time for this 
committee to consider how to strengthen our grid. I would hope 
as we invest in the comeback for all the States that have been 
impacted by these natural disasters and also areas like Puerto 
Rico, the Virgin Islands, and the various territories, I would 
hope we build a grid of the future.
    We've learned many lessons from Mother Nature. Following 
the devastation from major disasters, people begin to think and 
plan for all possibilities. In New York, the REV initiative, 
borne by the New York State Public Service Commission, came in 
the aftermath of Superstorm Sandy. It was inspired by 
Superstorm Sandy. That disaster showed the value of distributed 
generation and encouraged the State to invest in microgrid R&D 
and consider barriers to deployment.
    So, Dr. Dillingham, you mentioned microgrids paired with 
combined heat and power systems. Can you describe the value 
these systems add to our grid system in general?
    Dr. Dillingham. Yes, absolutely. So, a microgrid system 
with combined heat and power is typically a natural gas-based 
system, and so what these combined heat and power systems do is 
they produce power onsite and then also provide thermal 
services if it's for hospital sterilization, domestic hot 
water, steam for industry manufacturing, and such.
    And so what we typically find is that the natural gas 
infrastructure is significantly--can be significantly more 
robust than a transmission distribution infrastructure. It 
seems to withstand a lot of the severe weather events. And so 
what we're seeing now is a greater deployment of these CHB 
microgrid systems particularly in the hospitals--in Texas and 
in kind of most of our region in hospitals, wastewater 
treatment plants, first responder-type facilities, data 
centers, and you're seeing a greater growing of flexibility in 
application of these.
    At one point, combined heat and power was largely seen as 
kind of an industrial type of approach. Now, you can get them 
down to very small even residential size to build even 
community microgrid systems. And in many cases these are fairly 
diverse systems to where you have maybe the CHP or a natural 
gas generator as your base system, and then you have solar and 
batteries there as well, so you have an additional--other types 
of generation components.
    But it's largely, you know, a system that allows you to 
potentially island from the grid so if the power does go down, 
you would want to island from the grid. And if you do have 
that, you also need to have Black Start capability, so there's 
plenty of other types of components that go into a more 
resilient type microgrid system there that have been 
demonstrated and proven to work time and time again. And it 
adds to the diversity that we've been talking about of a power 
system.
    Mr. Tonko. Okay. Thank you. I would add that school systems 
where you might have a swimming pool as part of the phys. ed. 
infrastructure are also opportune----
    Dr. Dillingham. Right. And filters are used quite a bit 
for--or high schools, schools use them quite a bit for shelters 
as a last resort, and that's a very good application for that.
    Mr. Tonko. Absolutely. How important is federal funding for 
the development of these systems?
    Dr. Dillingham. At this point, it's a fairly mature system 
as far as the combined heat and power piece goes here. These 
have been around for quite a while. The diversity of 
applications now, most of the issues we find is there's just a 
lack of knowledge as far as how these systems can be used 
beyond, say, a gas refinery or beyond a natural gas processing 
plant, and how do we move this into a diversity of other 
groups.
    And so most of the work that we do has to do with kind of 
educating and kind of capacity-building among those that have 
not had a lot of experience with this. It's like when you talk 
with someone about solar and they still think it's, you know, 
$5 a watt, and right now, it's down to 60 cents a watt. People 
still think the economics are not there, but they are now, and 
so you just need that education piece of that, as well as some 
early technical assistance.
    Now, as far as microgrids in general, you know, there's 
still some significant work that can be done especially when 
you look at the communication devices, the sensors, how these 
are coupled together, how to do the appropriate optimization 
models. You know, there's some--still some significant work 
that needs to be supported at the R&D level, but the basic 
component of like a CHP, combined heat and power system is 
largely there and just needs to continue to be built out.
    Mr. Tonko. Thank you. The National Academies of Science's 
July report on resiliency suggested that distributed energy 
resources, and I quote, ``may help avoid or defer the need for 
new generation transmission or distribution infrastructure to 
address congestion localized, reliability, or resilience 
issues.'' So, Dr. Sanders, if integrated properly, can 
distributed generation contribute to making a resource 
generation mix more resilient?
    Dr. Sanders. To give you a simple answer, yes. We believe 
that putting together distributed generation sources, together 
with an appropriately engineered grid, can add to resiliency.
    Mr. Tonko. And if we include other investments such as 
storage and microgrids, does that offer new opportunity?
    Dr. Sanders. Definitely, they are all possibilities. It's 
hard to predict the future, and in one of the chapters, we talk 
about various features and how the grid would have to adapt to 
those futures, but they're all things that could be part of the 
mix.
    Mr. Tonko. Thank you. Mr. Chair, I yield.
    Chairman Smith. Thank you, Mr. Tonko.
    The gentleman from Texas, Mr. Weber, is recognized for 
questions.
    Mr. Weber. [Presiding] Thank you, Mr. Chairman.
    My district 14 in Texas, the three coastal counties 
starting at Louisiana and coming southwest, arguably ground 
zero for Harvey flooding. It's just unbelievable. I have 
learned more about restoration, recovery, and all of the 
efforts that have gone on than I ever wanted to know about 
disasters, and I hope I never get to--have to use it again.
    So with that as a backdrop, Beaumont lost water because 
their electrical boxes went--lost their city water system 
because their electric boxes went underwater, and a lot of the 
infrastructure there, had it been raised above ground six, 
eight, ten feet or more, it could have been protected. We're 
talking about infrastructure.
    Walt knows that I was on the Environmental Reg Committee in 
the Texas House and dealt with energy there that session so 
this is very--and I was an air-conditioning contractor before I 
sold my company, so this is very near and dear to my heart. A 
great, great discussion.
    A couple things I did want to follow up on. The gentleman 
from California, Mr. Rohrabacher, talked about EMPs and SMRs. 
Of course the SMRs are going to be more expensive to buy up 
front, so there's a cost factor there, but when you talk about 
EMP protection, I don't know probably which one of you guys can 
answer this is--does EMP affect only a magnetic field that is 
in operation at the time, or is it all electrical devices?
    Mr. Imhoff. Again, it's not my area of expertise, but I 
believe it would affect all because it's going to create 
currents that will tend to overheat and cause issues in various 
electrical devices, but again, I'm not an expert in this area.
    Mr. Weber. So you're--that is to suppose that a jet engine 
in an energy plant built by GE or whoever, this turbine that's 
not spinning--in other words, if we had redundancy, if we had a 
plant sitting there that wasn't operating, wasn't active, EMP, 
solar flare, choose whatever method you want, you were thinking 
that that would destroy the windings in that engine. Dr. 
Sanders?
    Dr. Sanders. So once again, not being an expert but talking 
with experts about this, my understanding is potentially yes if 
they are connected to the grid in a way that that current can 
get to them, but I think the important point is is that 
potentially, particularly when this is a solar-generated event, 
there is some warning, and so if we have appropriate detectors 
on the Earth, then we may be able to reconfigure parts of the 
grid----
    Mr. Weber. You would have a main switch you could throw----
    Dr. Sanders. In a sense.
    Mr. Weber. --disconnect it?
    Dr. Sanders. In a sense. It's probably not as simple as one 
main switch, but there are ways in which we could build 
protection according to the understanding----
    Mr. Weber. Okay.
    Dr. Sanders. --I have.
    Mr. Weber. Let me--you know, reading through this and going 
back through this brings up some really interesting questions. 
I think there's about five ways that we can help make our grid 
more resilient, and I'll just name them real quick. We need to 
have portable deployable assets. We talked about SMRs. We 
talked about other systems. Mr. Dillingham, you called it a 
microgrid of sorts I guess. I don't know how you have a natural 
gas pipeline that's capable of running that kind of facility, 
high-pressure pipeline. That's one of the challenges.
    You have to have preapproved--in other words, FERC, all 
these agencies have to have preapproved these in emergencies. 
You have to have multiple assets. You have to have more than 
one you can bring in. They have to be close. You have to have 
trained personnel. And I know in ERCOT--Mr. Baum, you and I 
talked about this--we really have a good--like I said, I've 
learned more about all of the collaboration that goes on after 
a disaster--a network of first responders. If you've got 
preapproved, if you've got portable assets, if you've got them 
close by, and you've got a network of trained responders that's 
cooperating, that will help harden our grid.
    Now, you get to the transportation part, the lines and 
stuff, Fukushima taught us something over in Japan, their 
nuclear plant, their backup power was too low. If we had our 
way, we would raise everything up eight, ten feet in the air at 
least to get everything above groundwater.
    Harvey was the single largest flooding event in United 
States history, so, you know, I don't know if we can come in 
and fix all of those problems and raise all of those things up.
    Mr. Baum, I'm going to come to you with a question. What 
kind of technology is available in your experience to stop a 
domino effect of power outages from moving region to region?
    Mr. Baum. In Texas, our grid operator, you know, is--as Dr. 
Dillingham talked about earlier, we deal with weather events 
all the time, nothing as extreme as Harvey normally, but our 
grid operators are used to dealing with loss of certain lines 
or loss of certain generation. During Harvey, ERCOT did have--
they have certain power plants that they have under contract to 
provide emergency power when needed, and when we lost some 
transmission lines due to the storm, they were able to call 
those reliability unit commitments into play, and a couple of 
power plants spun up to provide voltage support for that area. 
So that type of coordination needs to continue.
    One of the things you mentioned earlier, the staging and 
the moving of equipment, having ways to, you know, before--you 
know, before Harvey and especially before Irma, being able to 
stage crews and equipment and already have polls on the way to 
help out, you know, is very key.
    And, you know, like you said with the, you know, having 
modular equipment, you know, I mentioned earlier the mobile 
substations that we are able to bring in and keep power on the 
grid, and those type of activities need to continue.
    And it's like you said earlier, design changes do need to 
happen. The--you know, in Houston where you lost a big 
substation due to flooding, the Memorial substation, that had 
been there for 15 years----
    Mr. Weber. Right.
    Mr. Baum. --and--I'm sorry, for 50 years and had never had 
water inside it. But with this storm it was flooded and was 
underwater for over 10 days. So that is now--that substation is 
being rebuilt with, you know, the new normal to be prepared if 
we have another flood event----
    Mr. Weber. Right.
    Mr. Baum. --and being raised and doing walls and other 
things like that, you know, our--we need to look--you know, we 
need to take what we've learned from this storm and be prepared 
to do those design changes.
    Mr. Weber. Absolutely. Well, I appreciate that. Like I 
said, I've learned a lot. I hope I never have to use it again, 
but it is--it will be very, very important information to have.
    I'm going to now recognize the gentleman from California, 
Mr. McNerney.
    Mr. McNerney. Well, I thank the sitting-in Chairman for 
recognizing me. I thank the panelists.
    A moment of self-promotion, I care a lot about resiliency 
and reliability, and that's why, with Mr. Latta, we formed the 
bipartisan congressional caucus on grid innovation, and we've 
produced some bills that are now working their way through the 
system to answer some of these questions.
    My first question goes to Mr. Dillingham. Is there a 
significant difference in terms of reliability and resiliency 
with regard to microgrids versus distributed systems, or do 
they pretty much look the same in terms of those two questions?
    Dr. Dillingham. It's largely the same. I mean, it just 
depends on how you're defining a microgrid. Out there, there's 
still a considerable amount of definitions on what a microgrid 
would be, but it's largely distributed energy resources. You 
know, typically, if you look at solar rooftop, it's distributed 
energy. If you look at a microgrid, it's--typically has 
multiple resources associated with it, if it's solar, battery, 
CHP, or the like.
    Mr. McNerney. Okay. Thank you. You mentioned the adaption 
gap. Can you describe why that's a challenging problem?
    Dr. Dillingham. That's been--starting to be discussed quite 
a bit more and just generally infrastructure issues as far as 
how do we best prepare for climate change issues and if that's 
water treatment or stormwater mitigation or our transportation 
infrastructure or power infrastructure. But the concern is and 
the issue that we face is that, due to the multitude of 
potential weather events that are being faced, taking one 
action in one area may not necessarily solve other action. So 
if we deal with drought within our power system, does that 
necessarily solve high wind, ice storm, flooding, hurricane-
type issues.
    And when you are limited--financially limited, as we are, 
you know, within cities and with kind of--just within our 
infrastructure budgets, you kind of have this difficulty of 
making the appropriate decision, which way do I go as far as 
investing in the right piece of infrastructure. If I go and 
prepare for droughts and then all of a sudden I have ten years 
of floods, I look like I've really made a mistake here.
    And so that's one of the--when the expectations with these 
downscaled climate models, they're becoming so precise now, you 
can actually start putting likelihood estimates associated with 
potential storm intensity, as well as number of events, and 
those should start at least being considered being incorporated 
in our planning as we go forward and that should potentially 
reduce that uncertainty.
    Mr. McNerney. Very good. Mr. Imhoff, your testimony touches 
on the effort in framing metrics to support grid modernization. 
What role can the Federal Government play in developing metrics 
for the grid?
    Mr. Imhoff. Thank you, sir, for the question. The Federal 
Government is involved. As part of the Grid Modernization 
Laboratory Consortium, we are framing a set of metrics for the 
next generation grid, three of which are the traditional usual 
suspects of reliability and affordability and environmental 
profile, but the new ones of resilience and flexibility are 
kind of challenging and under debate but they're very essential 
as we go forward.
    So I think the Federal Government is providing some of the 
innovation to help frame and recast some of these activities, 
and they've established the opportunity then to work with 
States and the--at the regulatory bodies and the vendor 
community and others to help test and validate these, and 
they're part of the current GMLC research portfolio.
    Mr. McNerney. I've been in standards committees, and 
they're a pain, but it's worth it. It's worth the effort.
    Mr. Sanders, is enough being done regarding the 
interconnectedness of the grid with oil, gas, and other natural 
resources?
    Dr. Sanders. That's definitely an area in which more work 
needs to be done. Much of the work to date has been focused on 
the resiliency of the grid, but as I think many of us agree and 
as the report notes, that interconnectedness is important, so 
more work should be done.
    Mr. McNerney. Well, how would you rank cybersecurity issues 
with the grid resiliency?
    Dr. Sanders. Cybersecurity, if I understand your question 
correctly, is a very important impairment to grid resiliency, a 
very real impairment, and one of the important things we should 
consider. The report takes an all-hazards approach. In fact we 
talk about about 12 different impairments of the grid. They're 
all important, can't leave them out. What we need to understand 
is to what extent can we build protections that can protect 
against multiple of these impairments, and to what extent do we 
need to build specific mitigations for them?
    Mr. McNerney. Well, then how does knowledge of previous 
cyber attacks prepare for future attacks? Is----
    Dr. Sanders. Great question. Clearly, knowledge is very 
important. On one hand, knowledge can be used through 
appropriate information-sharing in order to alert others that 
this particular vulnerability, which is being exploited, may be 
exploited in another location and in a very close period of 
time. On the other hand, there are always new kinds of attacks, 
so-called zero-day attacks, and so we cannot rely purely on 
history to think about the future.
    In a sense what we need to do--and this is where resiliency 
is very important--is we need to build systems that, rather 
than protecting against very specific cyber attacks, protect 
against whole classes of effects those cyber attacks may bring 
on the grid. So by thinking about the effects and through 
resiliency, through that resiliency cycle, mitigating those 
effects, then we can begin to protect against zero-day attacks 
that we haven't seen before.
    Mr. McNerney. All right. Thank you, Mr. Chairman. I yield 
back.
    Mr. Weber. I thank the gentleman.
    The gentleman from Indiana, Mr. Banks, is recognized for 
five minutes.
    Mr. Banks. Thank you, Mr. Chairman.
    What an incredibly important subject for us to tackle 
today, so I appreciate the Committee diving deeply into these 
issues.
    And when I continue to talk about the cyber-related aspect 
of this subject as the growing number of--the growing threat of 
cyber attacks is something that concerns me as a policymaker 
and does a number of my colleagues as well. And these are no 
longer hypothetical threats. We've seen two threats to the 
electrical grid in Ukraine, for example. And with the systems 
relying more and more on computers and information technology, 
we need to do everything, as you know, that we can to counter 
potential cyber threats.
    So with that, Dr. Sanders, could we take a step back and 
maybe give us more specifically how often is the cyber--is 
there a cyber attack or an attempt of a cyber attack on our 
national grid? And have we seen that number rise over the past 
five years?
    Dr. Sanders. Thank you very much for that important 
question. First, let me say that it's a very difficult question 
to answer. Different people have different bits of knowledge, 
some of that knowledge in the open, some of that knowledge 
classified, some of that knowledge in the hands of other 
countries, so it's a difficult question to answer.
    Having said that, what we're seeing is an increase in the 
rate of observed cyber attacks, right? We now have documented 
cyber attacks that are known in the public. We didn't have that 
just a few years ago. And we're seeing that the frequency of 
lower-grade probing and attacks on both the operational 
technology and on the information technology, both on the--if 
you will, the online part of the grid and the offline control 
of the grid, those kinds of attacks increasing.
    Mr. Banks. How do we monitor those attacks? I mean, how do 
you--can you give us sort of a dummied-down version of how we 
monitor--how do we know that those attacks occur and exist?
    Dr. Sanders. Sure. So some of them are big and we read 
about them in the news, right, the Ukraine attack and these 
kinds of things. Some of them we can monitor for. The lower-
grade, more frequent ones we can monitor for using online 
technology. There are systems called intrusion detection 
systems first popularized in our corporate information 
technology systems that can look for packets, that can look for 
behavior that tends to be abnormal and flag those as possible 
attacks. There have been specific versions of those intrusion 
detection systems that have been built for the power grid both 
on the side of smart meters, for example. One was developed at 
the University of Illinois that's been prototyped and used at 
FirstEnergy, for example, and other aspects of grid-specific 
kind of networks.
    Now, the trouble is is those signals are not always clear. 
We get a lot of noise in those, and so we have to fuse that 
information together, and we have to create higher-level 
intelligence that we then can make those determinations, and 
work to do that is ongoing.
    Mr. Banks. So these might seem like obvious questions, but 
what do we know about these adversaries who carry out attacks 
like these? What are their motives? Where are they coming from? 
Can you talk a little bit--we haven't talked enough about that 
today. Can we talk a little bit about----
    Dr. Sanders. Sure. Sure.
    Mr. Banks. --what we know about these adversaries?
    Dr. Sanders. Sure. I think we know a lot, but we know 
pieces of the whole story. We know that they come in all forms. 
We know that they come from kiddie scripters up to potentially 
nation-states, right? The evidence is pretty strong that 
nation-states are involved. We know that they're coordinated, 
we know that they're deliberate, we know that they will wait, 
they will insert code into a system and they may wait months 
until they activate that code. So the real challenge is to gain 
that understanding and to understand how to react to these 
things when the adversaries may be willing to wait months to 
gain their information.
    Mr. Banks. An incredibly important subject, and hopefully, 
Mr. Chairman, we'll have many more opportunities to examine 
these issues. I appreciate all of you being here very much. 
With that, I yield back.
    Dr. Sanders. Thank you very much.
    Chairman Smith. Thank you, Mr. Banks.
    The gentleman from Illinois, Mr. Foster, is recognized.
    Mr. Foster. Thank you, Mr. Chairman. And this is a 
technical question here. A lot of the really destructive 
scenarios that people, you know, worry about have to do with 
phase imbalances, resonant conditions, this sort of stuff, 
frequency mismatches that make it really hard to control the 
grid. These don't occur in a DC. grid, and there--I was 
wondering what studies may have been done about the potential 
resiliency differences on DC. grids versus A.C. grids which, 
you know, have just a number of advantages I can think of just 
in terms of being able to, you know, passively protect them 
with things like diode clamps from--and the interface is a much 
simpler one. You have--simply, are you delivering the voltage 
and current or are you not, and opening up the circuit. It's 
just--from a number of ways, it seems to me it's a lot easier 
to protect. I was wondering what work has been done on trying 
to quantify that difference and that may actually cause us to 
think over time of actually switching to a DC. grid, which gets 
mooted from time to time. Yes.
    Mr. Imhoff. So I'll start but defer to the professor. The--
as you know, the history of our system being an A.C. system is 
long, and it started 2 centuries ago I guess, but there's 
substantial experience with DC. interties mainly today focused 
on movement of large amounts of power over long distance. They 
are more efficient and you can--actually, right above the A.C. 
system and not have to deal with a lot of the reliability 
oscillatory control and other things underneath in that A.C. 
system.
    Mr. Foster. Correct. Right.
    Mr. Imhoff. But it all gets down to cost, and so the 
planners--we don't--have not seen a lot of DC. activity here in 
the United States over the last decade until the offshore wind 
issues became emergent, and so there is more direct-current 
activity in Asia and in Europe than in the United States. I 
think here is just an artifact of the economics of the current 
system where we have a flat demand. We have a lot of 
inexpensive natural gas, and I don't think that the economics 
have really tripped it in the favor of more DC. activities 
going forward.
    I will say that, as part of the grid modernization 
consortium portfolio, there is a study that's being coordinated 
with various ISOs, Midwest ISO, Southwest Power Pool, 
Bonneville, and the Western Interconnection looking at seams 
issues in terms of how my DC. overlays enable capacity-sharing 
beyond the current interconnection boundaries and what value 
would that provide and what sort of cost performance would that 
offer. So I think there's an emerging body of knowledge and 
analytic tools that might look to the next generation of the 
modernized grid and re-examine this issue of what might be the 
relationship between A.C. and DC. systems at the bulk system-
level. And that study should be wrapping up in January, I 
believe.
    Mr. Foster. Well, the other thing that's changed is 
essentially all power that goes out certainly at the consumer 
level goes through an A.C. to DC. converter, and so at some 
point, you know, we've been just converting more than we might 
necessarily have to. And the pure DC. system may have 
advantages just in terms of--you know, if we were to start over 
from scratch, I think we'd seriously consider a DC. system.
    Also, if you add the requirement of EMP hardness, which is 
a very expensive thing but may prove necessary, and cross your 
fingers that Rocket Man doesn't do what he's been talking 
about, but if that is a requirement added to this, then I think 
protecting a DC. system against that will be, my guess, 
significantly easier than an A.C. system where you have phase 
and frequency to worry about.
    So is there any work, you know, at the lower end in Europe 
or anywhere looking at--you know, at the distribution-level DC. 
system?
    Mr. Imhoff. There is consideration of this notion of 
avoiding the transform--and the inherent losses in the 
transformers to go to more DC. I think some of the large data 
farms and others are emerging are very high consumers of 
electricity actually do some of that because they're inherently 
D.C.-oriented inside and so they're avoiding some of those 
issues. But it's more kind of localized and off--one-off 
evaluations, I believe. I'm not aware of anything substantial 
in the United States.
    Mr. Foster. Yes, well inside big data centers, for example, 
I believe they are switching to DC. power. It is where they 
have got, you know, many megawatts. And so there's another big 
vulnerability that gets worried about, which is just how long 
it would take us to remanufacture many, many high-powered 
transformers, whereas it probably would be easier to rebuild 
the fraction of D.C.-to-D.C. converters that got wiped out in 
an EMP pulse. And so if you add that as a requirement, it may 
again tip the balance when you add the hardness requirement.
    Anyway, if there's anything specific that can be talked 
about either, you know, publicly or not publicly about efforts 
along that direction, I'd be interested.
    Mr. Imhoff. I'd be happy to take that for the record.
    Mr. Foster. Thank you. I yield back.
    Chairman Smith. Thank you, Mr. Foster.
    And the gentleman from Illinois, Mr. LaHood, is recognized.
    Mr. LaHood. Thank you, Mr. Chairman. And I want to thank 
the witnesses for your valuable testimony here today and want 
to particularly welcome Dr. Sanders, who's the Department Head 
at our flagship university, the University of Illinois, and for 
what you do at the electrical and computer engineering program 
there. Great to have all of you here today.
    Dr. Sanders, in your testimony, you mentioned your work at 
the U of I, the University of Illinois with the cyber 
infrastructure for the power grid center and also the Cyber 
Resilient Energy Delivery Consortium. Two questions on that, 
could you talk a bit more about how these two centers are 
helping to make the U.S. power grid more resilient, and then 
secondly, is this the type of work that's happening at other 
universities?
    Dr. Sanders. Thank you, Mr. LaHood. I'll--at the risk of 
being self-promoting, I'll try to be a bit brief on this. The 
University of Illinois started work on cyber infrastructure 
making trustworthy and making resilient and cyber secure the 
infrastructure for the grid back in 2005. I can say that this 
is a real need that we realized by the turn of the century, but 
it took time to get the attention of the funders and really 
have people understand this was an important thing to work on.
    The first of those efforts, TCIP we call it, or Trustworthy 
Cyber Infrastructure for Power was funded by the National 
Science Foundation in a grant, and in the wisdom of the 
National Science Foundation, even though financial contribution 
was not large at the time, they brought in Department of Energy 
and Department of Homeland Security to work closely with us.
    It was very different than your typical academic research 
project. From the very beginning, we brought in people from 
industry and the National Labs. People from Mr. Imhoff's group 
were with us at 2005, and we were defining the research agenda. 
People from about 35 companies came together at that first 
meeting, and they worked closely with us from that point out.
    A follow-on effort was funded by the Department of Energy, 
which is called TCIPG, and TCIPG expanded the scope to say 
don't just do the good academic research but find ways to 
transition that and get that in the hands of people that need 
it.
    Several startup companies have come out of that effort. 
Technology has been specifically transitioned to large power 
system equipment manufacturing, and you can see really that 
kind of input going on.
    Most recently, in 2015 there was once again an open 
competition from the Department of Energy, and the University 
of Illinois then received something called CREDC. That's Cyber 
Resilient Energy Delivery Consortium. And at that point in 
time--and I should say in the original centers that I talked 
about, there were four universities that partnered together. 
Now, 10 universities and two National Labs, including PNNL, 
banded together to look at resiliency issues in the grid.
    So that, once again, is a project that takes basic research 
but takes basic research and then industry-government 
partnership in a way that we can have impact. In fact my 
colleague David Nicol, who is the principal investigator of the 
CREDC effort, is in Texas today talking with people from the 
oil and gas industry about how we can transition our 
technologies to them. We flew out together last night from 
Champaign, him to Texas, me to here, and this is the kind of 
effort we place going on. So thank you for that question.
    Mr. LaHood. Thank you. Those are all my questions. I yield 
back. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. LaHood. A good Texas-
Illinois connection there I didn't know about.
    The gentleman from Florida, Mr. Crist, is recognized for 
his questions.
    Mr. Crist. Thank you very much, Mr. Chairman. And let me 
add, thank you for holding this hearing on this important 
issue. As a Floridian, I certainly appreciate it. I want to 
thank the panelists for being here, too. I appreciate your 
presence and taking of your time to help educate us even more 
about our grid and its resiliency.
    I recently saw a comparison that the Energy Information 
Administration did on grid resiliency during Hurricane Irma and 
Hurricane Wilma, which hit Florida in 2005. The assessment 
states, quote, ``Although the percentage of Florida customers 
without power during Irma was significantly higher than during 
Wilma, the rate of electric service restoration has been more 
rapid.'' Five days after Irma's landfall, the share of 
customers without power had fallen from a peak of 64 percent 
down to 18 percent, a recovery rate of about nine percent of 
the customers per day. Power outages during Wilma back in 2005 
went from 36 percent of customers to 16 percent by the fifth 
day after landfall, an average recovery rate of about four 
percent of customers per day.
    Dr. Dillingham, I'm curious. You know, with this in mind 
and--can you speak generally about improvements that have been 
made to make our grid more resilient and specifically maybe 
focus on discussion of the utilization of underground lines as 
a means of increasing resiliency? We see a lot of our barrier 
islands and beach communities in Florida moving to this not 
only because it's aesthetically appealing, but we get hit by 
hurricanes a lot.
    Dr. Dillingham. Yes, absolutely. Thank you for that 
question. Yes, there have been significant improvements, 
particularly in the resilience of the transmission distribution 
infrastructure. We are seeing quicker response times. There's a 
lot better coordinated deployment, as Mr. Baum talked about 
within the ERCOT region. The systems are just becoming more 
robust to deal with this.
    When you talk about burying lines versus aerial lines, the 
significant issues with that is it may solve some problems in 
some areas where there is high wind events but where there's a 
lot of flooding, that could actually put it at considerable 
risk if they're not properly designed. And so you need to--as I 
kind of mentioned earlier, developing----
    Mr. Crist. I think I'm assuming proper designing.
    Dr. Dillingham. Proper designing, right.
    Mr. Crist. Wouldn't we?
    Dr. Dillingham. We would assume proper design there, but 
what we typically find is that if we start--you know, like 
within Houston we have lines that are aboveground and 
belowground. The concern there is that in more flooding 
environments, you just have a higher risk of those lines being 
disrupted versus if they're aboveground, and so it's just--you 
have to make that tradeoff. If you're going to pay the 
additional dollars to bury them, are they properly developed 
and properly can mitigate against that, that flooding risk 
there.
    But to your point, they're--we have seen significant 
improvements in the way in which our systems have been 
designed. They're more flexible. They're allowing for better 
rerouting of power. And so yes, they have improved 
considerably, but we need to keep in mind also that, you know, 
the focus right now of course we've had three significant 
hurricane events, and so we are talking about that quite a bit 
right now, but there's a lot of other issues that are being 
dealt with across the country if it's wildfire, if it's ice 
storms, if it's drought that can also have significant impacts, 
and if we're preparing just for hurricanes and preparing for 
floods, we may be missing the point as far as preparing for 
some of these other disasters. And so we need to continue to 
figure out what's the best way to develop a diverse resiliency 
grid that can deal with as many problems as possible.
    Mr. Crist. Maybe we should talk about those then. If we're 
talking about fire, isn't it probably better to have your 
transmission lines underground than aboveground also?
    Dr. Dillingham. I would assume so, yes, because you're 
taking away that risk.
    Mr. Crist. And if you're talking about ice, wouldn't the 
same hold?
    Dr. Dillingham. For ice it could, but then you're--you're 
looking at just a significant increase in the cost when you 
bury lines versus having them aboveground, and so it becomes 
how much are we willing to pay to have that additional 
resilience in there, and where is that funding going to come 
from them, and how much are we going to pass on to ratepayers 
in that regard? And that's just the tradeoff there. In many 
cases, particularly--except for pretty much flooding, you can 
have a more resilient system underground. It's just a--it's 
protected from those events. But are we willing to pay that 
additional cost to have that resilience in there?
    Mr. Crist. Maybe we should look at it this way. If you're 
talking about additional cost and you don't underground them 
but you keep replacing them aboveground, you've got that 
replacement cost every time or the repair cost every time 
versus maybe you come close to eliminating it.
    Dr. Dillingham. Absolutely right, but the way in which 
economics are typically valued into these projects is first 
costs and what is the first cost and that initial cost for me 
versus long-term lifecycle analysis, which needs to be 
considered further.
    Mr. Crist. Wouldn't it be more enlightened to consider the 
reality of, you know, having to replace over and over and over 
again versus the likelihood of maybe not?
    Dr. Dillingham. Absolutely, it's just that's not how 
decisions are made at this point. It's very much kind of a 
short-term viewpoint versus a long-term viewpoint and so----
    Mr. Crist. We're in this for the long haul.
    Dr. Dillingham. Oh, absolutely--you're absolutely right.
    Mr. Crist. Right.
    Dr. Dillingham. I agree with you on that. Yes.
    Mr. Crist. I yield my time. Thank you very much, sir.
    Chairman Smith. Thank you, Mr. Crist.
    The gentleman from South Carolina, Mr. Norman, is 
recognized.
    Mr. Norman. Thank you, Mr. Chairman. I just want to thank 
each of you for your testimony. It's been very interesting on a 
very important subject.
    Let me switch gears with you. Smart meters, Mr. Imhoff, 
what kind of information is gathered and how is it used?
    Mr. Imhoff. The smart meters typically monitor consumption 
in the home. The utilities then use that to support their 
billing function, and then in addition, the utilities use them 
in support of their outage management systems to help detect in 
real time when outages occur. Today, the majority of utilities 
still wait for a phone call from a customer to inform them that 
the power is out in a distribution feeder area. But in areas 
that are served by a combination of smart meters and then 
distribution automation devices in the substation have 
delivered substantial improvements.
    Vista in Washington State, an investor-owned utility there, 
as they moved to distribution and smart metering, they reduced 
the frequency of outages by 21 percent for the customers and 
they reduced the duration of outages by ten percent and in a 
very cost-effective fashion. So typically, that's how that 
information is used, to support the billing and the outage 
management systems. I'm not aware of any other key value 
streams.
    Mr. Norman. Let me ask you this. What is your opinion? Are 
privacy and security concerns on the information that is 
gathered something that we ought to--that the customer ought to 
be concerned with? And is it encrypted in your--from what you 
know?
    Dr. Sanders. So, thank you very much for that question. 
I'll jump in. So with regard to the--well, to answer your 
question simply, there are many different brands of smart 
meters, there are many different schemes that are being used, 
but in general, yes, the information is encrypted, and steps 
are taken for privacy.
    With regard to cybersecurity issues and the meters, there's 
probably less concern about privacy but a potential concern 
that again is being thought about carefully so the sky is not 
falling but potential concerns with regard to someone who may 
try to gain control of their--those smart meters from the 
outside. So smart meters do have the ability to control power 
flow to the house, and so one must design architectures--and 
those who are designing smart meters are well aware of this--
that ensures that the control of those meters cannot be placed 
in the hands of an adversary.
    Mr. Norman. And we would depend on experts like each of you 
to tell us which meters, as technology improves, can avoid some 
of this because, as Congressman Banks said, the--when you 
mentioned cybersecurity hacks, particularly with the Chinese 
with the military, their face gets very serious and it's a huge 
problem.
    And, Dr. Dillingham, again, back on the underground versus 
overhead, I'm a--we're a developer. I've seen the number of 
lines that are cut inadvertently and the problems that it has, 
additional to the heavy cost that it takes to put them 
underground and the rights-of-way that come with that, so I 
appreciate your--mentioning the cost because it's a huge 
factor.
    Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Norman.
    The gentleman from Virginia, Mr. Beyer, is recognized.
    Mr. Beyer. Thank you, Mr. Chairman, very much, and thank 
all of you for being with us today.
    You know, it's very important that we're having this 
hearing, especially because our President is visiting Puerto 
Rico today. And it's in a time when we talk about electrical 
grid utility--resiliency, Puerto Rico has virtually no 
electrical grid to speak of. As FEMA Director Long said 
yesterday, ``Rebuilding Puerto Rico after Hurricane Maria will 
be a Herculean effort.''
    The Army Corps of Engineers is doing temporary power right 
now, 74 generators in place, 400 to come, but I think, as of 
this morning, only a little more than five percent of Puerto 
Ricans have had their power restored. According to the Army 
Corps of Engineers, for some areas of Puerto Rico, it might 
take upwards of 10 months before their power is restored. And 
it's not just the electrical grid system that's in crisis. As 
of 3:00 p.m. yesterday, fewer than half of all Puerto Ricans 
had access to clean drinking water, limited to no cell phone 
service, 90,000 applications for FEMA assistance, we know of 16 
known fatalities, and that doesn't count those who may have 
died in their homes yet to be discovered. It's two weeks after 
Maria, but now we do finally have an aid package for Puerto 
Rico and the U.S. Virgin Islands.
    So, Mr. Chairman, may I suggest perhaps a follow-up 
meeting--follow-up hearing on the resiliency of the electrical 
grid in Puerto Rico.
    And, Dr. Dillingham, if today was a hearing about how we 
should respond to Puerto Rico, based on your expertise, what 
solutions would you suggest to make the grid more resilient? 
What are the near-term solutions to bring power back faster to 
those, including renewables?
    Dr. Dillingham. Thank you for that question. This is very--
absolutely a very important topic at this point. The 
significant problem within Puerto Rico was the lack of--the 
loss of the transmission distribution infrastructure. The power 
plants fared just fine there, and they have a fairly diverse 
set of power plants there from--they have natural gas plants, 
solar, wind, variety of plants. There was a transmission 
distribution infrastructure that went down and is going to take 
a while to get back up.
    When you look at the power prices within Puerto Rico and 
look at what are the different microgrid options that are out 
there, it makes--it's starting to make some pretty good 
economic sense to start seeing more solar battery deployments 
out there. We've already seen the--potentially the wall packs 
being donated by Tesla to some degree, but a wider distribution 
of these types of microgrid systems that are not dependent on 
fuel resources necessarily or not dependent on LNG terminals 
being on or transmission distribution terminals working or 
making sure that different types of fuel shipments make it 
there.
    And if you're in a hurricane-prone area such as Puerto 
Rico, the ability to have smaller resilient microgrid systems 
is probably the best effort. And the quickness in which you can 
deploy a microgrid system, especially solar battery system, is 
far--happens far more quickly than you can deploy any other 
type of infrastructure out there at this point.
    And when you look at models of what's happening in Hawaii, 
who has similar power costs, and you start seeing their 
distribution or their development and deployment of microgrids 
out there, it just--it's a good example to start looking at. 
The economics are there, the technology is there, and it's 
really just a matter of starting to introduce it.
    Mr. Beyer. Great. Great. Thank you very much. You know, 
this hurricane season, which isn't even over yet, it's 
generated more destructive storms than we've seen in a long 
time. Four of this year's storms became category 4 or 5 storms. 
Three of those made landfall in the United States. The 
University of Wisconsin called Harvey a 1,000-year flood, once 
every thousand years. Quote, ``Nothing in the historical record 
rivals this.'' Maria was the 10th-most intense hurricane ever. 
Jose and Irma, only time in recorded history that two active 
hurricanes simultaneously had wind speeds in excess of 150 
miles an hour.
    So while we talk about electrical grid, we cannot afford to 
avoid the larger-scale issue that these storms are becoming 
more intense as the climate warms as it changes. So, Mr. Baum, 
are utilities, especially those in Texas, taking climate 
change, the increasing severity of storms into account in their 
planning? What are you doing to upgrade the grid system to 
recognize that, you know, we're living in a world where the 
climate is changing?
    Mr. Baum. I think there's no question that we are taking 
into consideration the new normal after events like this. And 
as I stated earlier, we had a substation in Houston that 
flooded that had not flooded in 50 years. That substation is 
now being rebuilt to prepare for, you know, what is now the 
flood of record. And I think all of the design that utilities 
do, it basically says, all right, what's the worst-case 
scenario that we've seen and now how do we build our system to 
prepare and be ready to face the next type of storm? So I 
definitely think practical planning is something that utilities 
are doing and will continue to do going forward.
    Mr. Beyer. Well, thank you for your vision and your answer. 
Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Beyer.
    The gentleman from Florida, Mr. Webster, is recognized.
    Mr. Webster. Thank you, Mr. Chairman. Thank you all for 
coming.
    I thought about, as Mr. Foster was talking about A.C. and 
D.C., maybe Edison will get a car named after him instead of 
the Tesla. And it's amazing all the things he's doing, 
including the battery packs that the company is sending are all 
D.C., and yet he was the greatest promoter of A.C. It's a kind 
of interesting switch of events.
    Mr. Baum, in Texas in the last hurricane, which just 
passed, was there a lot or minimal or in between those two 
damage to the high tension wires from the generator to, let's 
say, the substation, or were most of the outages caused by the 
lower voltages?
    Mr. Baum. A combination of both, but I would say most of 
the customer outages were caused by--on--were more on the 
distribution system that were caused by flooding and 
substations being out, which then knocks out the distribution 
system. But we did have some large--we had six of our largest 
345 kilovolt transmission lines were downed or damaged for a 
while during the storm, and a large number of smaller 
transmission lines were also affected. So it was both in this 
storm, transmission and distribution, which goes it--which 
again, the lights in the whole State never flickered, and a lot 
of that is because of the redundancy in both the transmission 
and the distribution network.
    Mr. Webster. So from just a hardening standpoint, is there 
any change that needs to be done to the high tension lines in 
order to make them more resilient?
    Mr. Baum. I think you're always looking at ways to 
develop----
    Mr. Webster. Let me ask you--my knowledge is from a long 
time ago, so are they still aluminum with steel cable running 
with them or is it--is there a new type of transmission wiring?
    Mr. Baum. Most of the transmission wiring is still as you 
described.
    Mr. Webster. Okay.
    Mr. Baum. I think if there are advancements being made, a 
lot of it is in the structures that hold up the transmission 
lines and finding ways to design those better to withstand 
storms.
    Mr. Webster. So what was the cause of a structure? Was it 
external flying debris or was it water or what was it that 
would----
    Mr. Baum. With our transmission lines that were affected, 
it was high winds that were twisting the structures that hold 
up the lines or--and you didn't really have a lot of lines 
breaking. It was more high winds twisting the structures that 
holds them up that brought down power lines.
    Mr. Webster. So was there--is--would there be an effort now 
to come up with a better way to build those structures or to 
harden them in any way?
    Mr. Baum. I think definitely. We have a new Chair of our 
Public Utility Commission. DeAnn Walker was just named after 
the storm, and the--at a meeting last week, she basically said 
let's get the utilities and other providers together to see 
what ways we can improve for the next storm, and I'm sure 
that's one of the things that we'll be looking at.
    Mr. Webster. I mean, I would think that we'd be--building 
something like that would be a long-term--is there--was there a 
way--you were talking about rerouting, doing some other things. 
Were those all able to be rerouted around those structures that 
fell or were twisted?
    Mr. Baum. We--they were able--through a combination of 
rerouting and having some power plants that our grid operator 
contracts with to ramp-up to provide voltage support to some of 
those areas that were affected by the lines that went down, and 
so there were ways to make it to where this did not--the loss 
of the transmission system didn't cause a cascading effect.
    Mr. Webster. Okay. I yield back.
    Chairman Smith. Thank you, Mr. Webster.
    That concludes our questions for the day. Thank you all for 
your wonderful testimony. It was very enlightening to us, and 
we have lots to do on our part as well.
    So I appreciate everybody being here, and we stand 
adjourned.
    [Whereupon, at 12:06 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
                   
Responses by Mr. Carl Imhof

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Responses by Dr. Gavin Dillingham

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Mr. Walt Baum

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II

                              ----------                              


                   Additional Material for the Record



                    Statement submitted by Committee
                  Ranking Member Eddie Bernice Johnson
                  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                  


                  Document submitted by Representative
                             Marc A. Veasey
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             

                                 <all>
</pre></body></html>
